  U.S. Department of Education

Office of Inspector General




Semiannual Report to Congress: No. 46
    October 1, 2002 - March 31, 2003
U.S. Department of Education
Rod Paige
Secretary


Office of Inspector General
John P. Higgins, Jr.
Inspector General


Counsel’s Office
Mary Mitchelson
Counsel to the Inspector General


May 2003

This report is in the public domain. Authorization to reproduce it in whole or in part is granted. While
permission to reprint this publication is not necessary, the citation should be: U.S. Department of
Education, Office of Inspector General, Counsel’s Office, Semiannual Report to Congress, No. 46,
Washington, DC 20202.

To order copies of this report:

   •   Write to: ED Pubs, Education Publications Center, U.S. Department of Education, P.O. Box
       1398, Jessup, MD 20794-1398;

   •   Fax your request to: (301) 470-1244;

   •   E-mail your request to: edpubs@inet.ed.gov;

   •   Call in your request toll-free: 1-877-433-7827 (1-877-4-ED-PUBS). If 877 service is not yet
       available in your area, call 1-800-872-5327 (1-800-USA-LEARN). Those who use a telecom-
       munications device for the deaf (TDD) or a teletypewriter (TTY) call 1-800-437-0833; or

   •   Order online at: www.ed.gov/pubs/edpubs.html.

This report is also available on the Department’s Website, at: www.ed.gov/offices/OIG.
On request, this publication is available in alternate formats, such as Braille, large print, audiotape, or
computer diskette. For more information, please contact the Department’s Alternate Format Center at
(202) 260-9895 or (202) 205-8113.
  U.S. Department of Education

Office of Inspector General




Semiannual Report to Congress: No. 46
    October 1, 2002 - March 31, 2003
                            UNITED STATES DEPARTMENT OF EDUCATION
                                                OFFICE OF INSPECTOR GENERAL

                                                                                                               THE INSPECTOR GENERAL




                                                                                           April 30, 2003



Dear Mr. Secretary:
I am pleased to submit to you, in accordance with the Inspector General Act of 1978 (Public Law
95-452, as amended, section 5(b)), this semiannual report on the activities of the Department’s
Office of Inspector General for the six-month period ending March 31, 2003.

Ensuring equal access to quality education is a top priority of our nation and the central mission
of the Department. You have set the Department on a course of excellence in financial
management, program delivery, and operations to meet this fundamental goal. Our audits,
investigations, and inspections support this goal by providing independent and objective analysis
to identify shortcomings and make recommendations for improvements.

We look forward to continuing our work with you on the challenges facing the Department. As
this report evidences, our work focuses on our shared goal of achieving and maintaining
accountability throughout the Department.

The Inspector General Act requires you to transmit this report within 30 days to the appropriate
congressional committees and subcommittees, together with a report containing any comments
you wish to make. Your report should also include the statistical tables specified in section
5(b)(2) and (3), and a statement with respect to audit reports on which management decisions
have been made, but final action has not been taken, as specified in section 5(b)(4).

                                                                     Sincerely,




                                                                     John P. Higgins, Jr.

Enclosure



                          400 MARYLAND AVE., S.W. WASHINGTON, D.C. 20202-1510
            Our mission is to ensure equal access to education and to promote educational excellence throughout the nation.
                  INSPECTOR GENERAL’S
                  MESSAGE TO CONGRESS
We are pleased to provide this semiannual report on the accomplishments of the Office of
Inspector General (OIG), U.S. Department of Education (Department), from October 1, 2002
through March 31, 2003. During this period, we issued 55 audit and inspection reports and
memoranda and closed 120 investigations. We also testified before Congress on improvements in
the Department’s financial management.

Our work demonstrates OIG’s commitment to assist the Department in its implementation of the
President’s Management Agenda and in resolution of its major management challenges. We
directed significant resources to the Agenda’s goal to eliminate fraud and error in student
financial aid programs. We continue to find that applicants, school and administrative officials,
and others attempt to obtain funds from these programs illegally. We recently completed an
analysis to help the Department identify critical risks based on our extensive experience in student
financial aid programs. We recommended controls to safeguard these programs and help the
Department meet its objective to remove them from the General Accounting Office’s high-risk
list.

We also focused attention on the Department’s financial management, budget and performance
integration, and expanded electronic government to advance its efforts in meeting other items on
the President’s Management Agenda. For example, we examined challenges to the timely and
accurate preparation of the Department’s financial statements, compliance with funding
requirements for certain elementary and secondary programs, and protection of critical
infrastructure, including information technology. We made significant recommendations in these
areas providing valuable guidance for the Department to improve the integrity, effectiveness, and
efficiency of its programs and operations.

This is our first semiannual report since my Senate confirmation on November 14, 2002. My
senior staff and I, together with all OIG, look forward to continued partnership with the Secretary
and Congress in our common goal of a Department of Education that delivers programs and
services for the nation’s students with the highest standards of excellence and accountability.



                                                      John P. Higgins, Jr.
                                                      Inspector General
                                                           Contents
MESSAGE TO CONGRESS
ACTIVITIES AND ACCOMPLISHMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
PMA Goal: Improved Financial Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
   Financial Statement Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
   Testimony on Financial Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
   Financial Integrity Investigations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
PMA Goal: Budget and Performance Integration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
   Compliance with IDEA Funding Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
   Migrant Education . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
   Continued Non-Compliance by High-Risk Pacific outlying areas Grantees . . . . . . . . . . . . . . 3
   Controls over Equipment in the Virgin Islands . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
   Talent Search Program at Luther College . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
   Fraud against Elementary and Secondary Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
PMA Goal: Expanded Electronic Government . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
   Critical Infrastructure Protection Program. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
   Network Intrusion (Hacking) Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
PMA Goal: Elimination of Fraud and Error in Student Aid Programs . . . . . . . . . . . . . . . . 5
   Fraud by Administrative and School Officials. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
   Fraud by Student Aid Consultants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
   Fraud by Students. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
   Inconsistent and inaccurate Guidance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
   Improper Use of Reserve Funds. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
   Strengthening Accreditation Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
   Measuring Contractor Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Other Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
   Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
   Nonfederal Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Reporting Requirements (P.L. 95-452) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Table 1: Recommendations Described in Previous Semiannual Reports on Which Corrective
           Action Has Not Been Completed. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Table 2: ED/OIG Audit Services Reports on Education Department Programs and Activities
           (October 1, 2002 to March 31, 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Table 3: Other ED/OIG Reports on Education Department Programs and Activities
           (October 1, 2002 to March 31, 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Table 4: Inspector General Issued Audit Reports with Questioned Costs . . . . . . . . . . . . . . . . . 16
Table 5: Inspector General Issued Audit Reports with Recommendations for Better
           Use of Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Table 6: Unresolved Reports Issued Prior to October 1, 2002 . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Table 7: Investigation Services Cumulative Actions (October 1, 2002 to March 31, 2003) . . . 21
Table 8: Statistical Profile: October 1, 2002 to March 31, 2003 . . . . . . . . . . . . . . . . . . . . . . . . 27
Activities and Accomplishments
               The Office of Inspector General (OIG) for the period October 1, 2002 through March 31,
               2003, continued its work to improve the programs and operations of the Department of
               Education (Department) and to protect their integrity. We emphasized work to assist the
               Department in meeting the mandates of the President’s Management Agenda (PMA) and
               have summarized our work in these areas. Detailed information is available on our
               website at http://www.ed.gov/offices/OIG.

               PMA Goal: Improved Financial Performance
               The Department has made improvements in its financial management, and has taken steps
               toward establishing and maintaining a system of internal controls necessary for continued
               improvements. These improvements enabled the Department to reach its stated goal of an
               unqualified opinion on its Fiscal Year (FY) 2002 financial statements.

FINANCIAL      The independent auditors, Ernst & Young, LLP, issued reports on the FY 2002 financial
STATEMENT      statements for the Department and for Federal Student Aid (FSA). The reports noted
AUDITS         progress in the Department’s implementation of a new general ledger software package
               and in FSA’s implementation of a new financial management system. The Department
               also made progress on financial reporting related to credit reform. For example, it
               improved financial statement disclosures, monitored key credit reform accounts, began a
               process to study key assumptions in the subsidy models, and participated with the Office
               of Management and Budget (OMB) in a Student Loan Audit Modeling Working Group.
               (“U.S. Department of Education Financial Statement Audit Reports,” ED-OIG/A17-
               C0008; January 17, 2003)

               While the Department has made progress, significant management issues continued to
               impair its ability to accumulate, analyze, and present reliable financial information during
               FY 2002. The Department must resolve several critical challenges if it is to prepare timely
               and accurate financial statements and continue to improve its overall financial
               management. First, it needs to strengthen its financial management by improving its
               processes for reconciliations and account analysis. Second, it must ensure that it has the
               capacity to produce interim and final financial statements so as to meet OMB’s accelerated
               schedule. Third, the Department needs to improve controls to adequately safeguard the
               security of its financial management systems.

TESTIMONY ON   In March, Deputy Inspector General Thomas A. Carter testified before the Subcommittee
FINANCIAL      on Select Education, Committee on Education and the Workforce, United States House of
MANAGEMENT     Representatives, on the Department’s improvements in financial management. His
               testimony emphasized the need for strong controls to sustain these improvements. For
               example, we noted that there is a greater risk of fraudulent reporting by recipients when
               program performance and results have financial consequences, as they will under the No
               Child Left Behind Act. Therefore, it is essential to have strong controls to help ensure the
               accuracy and reliability of program performance data submitted by grantees.




                                                                                                         1
Office of Inspector General

                     We also emphasized the importance of monitoring
                     to improve the financial management of, and
                     accountability for, federal education expenditures.
                     Vigorous monitoring of programs and contracts
                     helps ensure that federal education dollars are
                     administered and used in the most effective and
                     efficient manner, and is vital to assuring program
                     success.
                                                                           Testifying before the House Subcommittee
                                                                           on Select Education


FINANCIAL                                            Our investigations resulted in a significant number of
INTEGRITY                                            arrests, convictions, indictments, jail sentences, and
INVESTIGATIONS                                       monetary restitutions to the government for fraud against
                                                     the Department’s programs. The last three persons charged
                                                     in a wide-ranging conspiracy to defraud the Department of
                                                     over one million dollars in electronic equipment and false
                                                     overtime charges were found guilty after a federal trial.
                                                     Also, in a related matter, Verizon Federal Systems entered
                                                     into a $2 million civil settlement with the Department for
                                                     federal claims on false overtime charges and improper
                                                     purchases by Verizon employees who conspired with the
                                                     Department employees. To date, nineteen persons,
                     OIG Special Agents transport
                                                     including eight Department employees, have either pled
                     evidence to court               guilty to federal charges or been convicted after a federal
                                                     trial in this case, and fourteen have been sentenced.

                     Our ongoing investigation of Department employees who used their government credit
                     cards to obtain more than $163,000 in money, goods, and services for their personal
                     benefit resulted in two guilty pleas. These individuals also received over $30,000 in
                     kickbacks from vendors by certifying as accurate, invoices they knew were false. The
                     Department employees are awaiting sentencing.

                     PMA Goal: Budget and Performance Integration
                     Our audits of States’ compliance with statutory and regulatory provisions intended to
                     ensure the efficient, effective, and equitable distribution and use of federal funds found
                     weaknesses in program administration at both the State and federal levels.

COMPLIANCE           We issued a report on our audit of selected States’
WITH IDEA            compliance with the funding requirements under the
FUNDING              Individuals with Disabilities Education Act (IDEA). Our
REQUIREMENTS         review found that Florida, Tennessee and Rhode Island,
                     three of the six States we audited, did not comply with
                     the formula for distribution of flow-through funds in FY
                     2000. As a result, all 332 local education agencies in
                     those States received the wrong amount of IDEA
                     funding, with some under-funded by as much as

 2
                                                                     Semiannual Report To Congress: #46

                  $599,000 and some over-funded by as much as $838,000. Our findings indicate that there
                  is a high probability that more States have incorrectly calculated the funding formula or
                  incorrectly distributed their IDEA allocations.

                  We recommended that the Department provide clearer guidance to all of the States on
                  calculating and distributing their IDEA allocations, and require the 44 States we did not
                  audit, as well as the District of Columbia and Puerto Rico, to reaffirm that they had
                  correctly calculated and distributed their data. The Department generally concurred with
                  our conclusions and recommendations. (“Audits of Six States’ Compliance with the
                  Funding Formula Requirements of the Individuals with Disabilities Education Act,” ED-
                  OIG/A06-B0029; December 19, 2002)

MIGRANT           We completed an audit at the Texas Education Agency (TEA) that examined the
EDUCATION         procedures for identifying migrant children who qualify for “priority for services.” The
                  Elementary and Secondary Education Act (as reauthorized by the No Child Left Behind
                  Act) provides that migrant children who are at risk of failing and whose education has
                  been interrupted should receive priority for services. We found that TEA had not
                  established or implemented procedures to identify and target migrant children eligible for
                  this priority for services. As a result, the Department has no assurance that Texas used the
                  $53 million it received in Fiscal Year 2001 Migrant Education program funds to benefit
                  priority for services migratory children before it provided services to other migratory
                  children. TEA concurred with our recommendations and is implementing corrective
                  action. (“The Migrant Education Program at the Texas Education Agency,” ED-OIG/A06-
                  C0030; February 5, 2003)

CONTINUED         In our continuing oversight role, we informed the Department about serious accountability
NON-              and compliance issues involving grantees in the Pacific Outlying Areas. The first
COMPLIANCE   BY   concerned misuse of education funds by grantees. Our preliminary audit and investigation
HIGH-RISK         work revealed instances of fraud, waste, and abuse that might have been detected and
PACIFIC           prevented through consistent oversight, such as on-site monitoring and ensuring that
OUTLYING AREAS
                  Single Audits and performance reports were completed and submitted on time. We
GRANTEES
                  advised the Department that it should develop a coordinated strategy to monitor the Pacific
                  Outlying Areas grantees, including on-site monitoring visits, and the Department agreed.
                  The Department has assigned a Department-wide team to address problems in the Pacific
                  Outlying Areas, as well as teams to address problems in Puerto Rico and the Virgin
                  Islands.

                  We also informed the Department of Pacific Outlying Areas grantees’ failure to submit
                  timely financial and compliance audits in accordance with Single Audit Act requirements.
                  Such audits would have informed the Department and other federal grantor agencies about
                  whether the grantees had properly expended and accounted for federal funds, had proper
                  internal controls in place, and had complied with laws and regulations pertaining to major
                  federal programs. We advised the Department to work with each Pacific Outlying Areas
                  grantee to develop a plan for it to meet the audit requirements. We also advised the
                  Department that before the statute of limitation periods expire, it should consider
                  demanding that each Pacific Outlying Areas grantee repay the Department all funds drawn
                  down that were not subjected to Single Audits. In general, the Department concurred.



                                                                                                           3
Office of Inspector General

CONTROLS OVER        Our audit of the Virgin Islands Department of Education, St. Croix School District’s
EQUIPMENT IN         (VIDE-St. Croix) controls over equipment purchased with federal eduation funds, found
THE VIRGIN           that VIDE-St. Croix did not maintain adequate inventory and management controls and
ISLANDS              could not account for $1,017,416 in equipment. VIDE-St. Croix agreed with most of our
                     recommendations and outlined corrective actions that were responsive to the weaknesses
                     we identified. (“The Virgin Islands Department of Education-St. Croix School District’s
                     Control of Equipment Inventory,” ED-OIG/A02-C0019; March 31, 2003)

TALENT SEARCH                            Our audit of the Talent Search program at Luther College, Decorah,
PROGRAM AT                               Iowa, found that the program served significantly fewer participants
LUTHER COLLEGE                           than it was funded to serve, or than required by regulation, making it
                                         ineligible for federal funds for the period covered. We recommended
                                         that the Department require Luther College to refund the entire
                                         $219,567 expended during its Talent Search program for the 2001-2002
                     budget period, and establish and properly document procedures to ensure that only those
                     participants receiving eligible services are counted as Talent Search participants. Luther
                     College did not concur with our finding or recommendations, but advised us it had taken
                     corrective actions.

                     We also recommended that the Department monitor the current Luther College Talent
                     Search project to determine whether the college will be able to meet required minimum
                     participant numbers or should have its grant withdrawn. We further recommended that the
                     Department review the college’s three prior budget periods to verify that the participant
                     numbers were met in each budget period, and take appropriate action. (“Talent Search
                     Program at Luther College,” ED-OIG/A07-C0031; March 28, 2003)

FRAUD AGAINST        OIG investigations of fraud in elementary and secondary education programs resulted in
ELEMENTARY AND       several significant prosecutive actions. Our joint investigation with the Federal Bureau of
SECONDARY            Investigation (FBI) led to a three-year prison sentence and an order to pay over $260,000
PROGRAMS             in restitution for a former administrative assistant who fraudulently obtained Title I funds
                     from Oakdale school district in Oklahoma. Our investigation of the Florida Institute for
                     Workforce Innovation resulted in the executive director of the institute signing an
                     agreement to repay the Department over $285,000 in Vocational Rehabilitation funds.

                     As previously reported, an extensive joint OIG/FBI
                     investigation involving fraudulent contracts for services under
                     the Goals 2000 program and Technology Literacy Challenge
                     Fund with the Puerto Rico Department of Education, resulted
                     in a jail sentence and forfeiture order totaling over $800,000
                     for the President of RV Research and Management. As part of
                     this investigation, the former Puerto Rico Secretary and
                                                                                     Cash seized by OIG Special
                     Associate Secretary of Education were sentenced in December Agents
                     2002 to 12 and 11 years respectively, for using their positions
                     to extort $4.3 million from Puerto Rico Department of Education contractors.




 4
                                                                      Semiannual Report To Congress: #46

                 PMA Goal: Expanded Electronic Government
                 In our ongoing work to support the President’s e-government mandate, we participated in
                 several intergovernmental projects and activities to assist the Department and to assess its
                 progress in securing its information technology (IT) resources.

CRITICAL         We completed an audit of the Department’s Critical Infrastructure Protection (CIP)
INFRASTRUCTURE   program as part of a government-wide effort coordinated through the President’s Council
PROTECTION       on Integrity and Efficiency. The Department is expected to have a CIP program to protect
PROGRAM          the infrastructure it needs to provide services for its core missions. We examined the
                 Department’s plans for protection of its critical cyber-assets and its progress in
                 implementing these plans since our previous review in 2000. We found that while the
                 Department has made progress in several areas, including strengthening its CIP planning
                 and identifying vulnerabilities in critical systems, the CIP program is still at risk primarily
                 because of a lack of effective monitoring and resource commitment. We made several
                 recommendations to the Department for improvement in these areas. The Department
                 agreed with our recommendations. (“Critical Infrastructure Protection Program (CIP) -
                 Phase II Review - Protection of Cyber Assets,” ED-OIG/A11-D0001; March 28, 2003)

NETWORK          We conducted network intrusion investigations of the offenses against Department’s
INTRUSION        computer networks, including investigations of website defacements and unauthorized
(HACKING)        access from internet protocol (IP) addresses located in several different countries. We
INVESTIGATIONS   actively participated in the FBI Inter- Agency Coordination Cell for computer crimes and
                 other federal computer crime workgroups. We provided special computer security
                 advisories relating to new cyber exploits and vulnerabilities to Department officials,
                 colleges, and universities.

                 PMA Goal: Elimination of Fraud and Error in Student
                           Aid Programs
                 The Department’s student financial assistance programs disburse about $65 billion
                 annually. The Department also manages a $267 billion loan portfolio. We direct a
                 significant portion of our investigative and audit work to these programs, where we
                 continue to find fraud by financial aid officials and recipients as well as weaknesses in
                 program administration.

                 We issued a memorandum to the Department summarizing the schemes used by
                 participants in the student financial assistance programs to obtain funds illegally or
                 inappropriately. Our analysis was based on OIG audit and investigative work over the last
                 several years, and included suggestions to assist the Department in addressing these
                 problems.

FRAUD BY         We investigate cases in which administrative and school officials use their positions to
ADMINISTRATIVE   fraudulently obtain federal student aid moneys. Some examples of these cases follow.
AND SCHOOL
OFFICIALS        The owner, registrar, director of education, and other employees at The Training Center, a
                 computer and travel school in Michigan, were indicted for falsifying documents to
                 illegally obtain student financial aid. The indictment included an $875,000 forfeiture to
                 recover the funds these individuals illegally received.

                                                                                                             5
Office of Inspector General

                     Three collection agency officials associated with Unger & Associates, Inc. in Texas were
                     sentenced to prison and each was ordered to pay restitution of over $1 million. This
                     agency contracted with over 200 educational institutions to collect on defaulted Perkins
                     loans; however, instead of returning the collected funds to the institutions, these officials
                     kept the money for their personal use.

                     The former assistant financial aid director at Carson Newman
                     College and her husband were sentenced to prison and ordered to
                     pay $287,500 restitution for using a false Social Security number
                     to submit fraudulent Federal Family Education Loan (FFEL)
                     applications. The financial aid director at Manhattan College in
                     New York was incarcerated and ordered to pay more than
                     $163,000 for submitting fraudulent FFEL applications. Two individuals in Indiana were
                     indicted for forging school certifications, exceeding maximum loan limits, and conspiring
                     to fraudulently obtain over $146,000 in FFEL funds.

                     The admissions director at the Hair Design School in Tennessee received a jail sentence
                     and was ordered to pay more than $26,000 restitution for creating false GED test scores for
                     students at the school. This crime caused the disbursement of over $100,000 in federal
                     loans and grants to ineligible students. The former chief financial officer at LeMoyne-
                     Owen College in Tennessee was sentenced to prison and ordered to pay $42,000 in
                     restitution after he cashed student aid refund checks and kept the funds for himself.

                     Our investigation at Beacon Career Institute (BCI) in Florida revealed a major Pell Grant
                     case that defrauded the Department of over $720,000. We found the former BCI
                     administrator and other BCI officials created false documents to justify the disbursement
                     of these grants. They were ordered to pay restitution totaling $1,778,472 and sentenced to
                     prison. We also made a referral to the Immigration and Naturalization Service that led to
                     criminal charges against the former administrator for bringing aliens into the country; he
                     received a jail term of three years for this offense. The former administrator also used an
                     alias to purchase the Caribbean Beauty and Technical Institute in Puerto Rico. He was
                     charged in Miami with student aid fraud at the Institute that resulted in disbursement of
                     over $1.7 million in Pell Grant funds. He is now incarcerated.

                                         Our investigation of a former instructor at Piedmont College of Hair
                                         Design in South Carolina led to a guilty plea and an order to pay
                                         restitution of $27,000 for Pell Grant fraud. Her actions caused over
                                         $300,000 in Pell Grants to be given to ineligible students.

                                          The director of foreign students and two professors at Morris Brown
                     College in Atlanta were indicted on 113 counts for conspiring to commit student visa
                     fraud, allowing ineligible students to receive aid. The former associate financial aid
                     director at Central Michigan University who received approximately $26,000 in federal
                     direct student loans by using her position to remove her financial aid suspension status
                     from the school’s computerized records was indicted for these actions. The former
                     coordinator of the Work-Study program at Union University in Tennessee stole more than
                     $70,000 from the program and pled guilty.




 6
                                                                     Semiannual Report To Congress: #46

FRAUD BY         Our investigation of Joseph & Associates, a financial consulting business in Illinois, led to
STUDENT AID      53 settlements and civil judgments totaling over $465,525 in the last six months. The
CONSULTANTS      owner of the business created false federal income tax returns to verify false income
                 amounts that enabled ineligible students to qualify for financial aid. We disclosed over
                 700 students who used this service.

                 A joint OIG/U.S. Postal Inspection Service investigation led to the conviction of an
                 individual in Los Angeles for student aid fraud. This individual conducted weekly
                 seminars for parents and students, charging them approximately $300 for the programs at
                 which he advised and assisted them in preparing student aid applications that deliberately
                 misstated their income or dependency status. The potential loss to the government from
                 his actions was approximately $800,000.

FRAUD BY         OIG special agents investigate many cases in which individuals falsify their income,
STUDENTS         commit identity theft, create false test scores, and commit other types of fraud to illegally
                 qualify for federal student aid. A student attending Bethel College in Kansas was indicted
                 for using another person’s identity to obtain approximately $50,000 in federal student aid.
                 A former student at Cleveland State University was indicted for using a false Social
                 Security number and date of birth to obtain approximately $10,000 in loans and grants
                 after defaulting on loans he received using his own identity. A former civilian Army
                 employee in Georgia who used false Social Security numbers to fraudulently obtain
                 student aid agreed to forfeit $30,000 in fraudulent tax refunds.

INCONSISTENT     We alerted the Department that its Federal Student Aid Handbook contained guidance that
AND INACCURATE   could result in schools disbursing federal student aid to non-citizens who are not eligible
GUIDANCE         for the aid. The Higher Education Act (HEA) requires that non-citizens must provide
                 certain evidence from the Immigration and Naturalization Service to be eligible for student
                 financial assistance. We found that the guidance the Department provided to schools on
                 the interpretation of HEA’s citizenship requirements was inconsistent and inaccurate. We
                 estimated that this guidance contributed to schools nationwide disbursing approximately
                 $5.4 million in aid to more than two thousand potentially ineligible students. We made
                 suggestions for changes to the guidance, and the Department reported to us that it is
                 revising the handbook and will address the issues we raised.

IMPROPER USE     Our audits have repeatedly shown that guaranty agencies have improperly excluded FFEL
OF RESERVE       funds from, or failed to deposit them into, the Federal Fund (reserve funds) as required by
FUNDS            the HEA. We have completed eight audits on this misuse of funds.

                 Our audit at Educational Credit Management Corporation (ECMC) found that ECMC
                 transferred $14.6 million in reserve funds to its Operating Fund. We recommended that
                 the Department require ECMC to return these funds plus imputed interest to its Federal
                 Fund and reimburse the fund for any misallocated costs. ECMC disagreed with these
                 findings. (“Educational Credit Management Corporation’s Administration of the Federal
                 Family Education Loan Program Federal and Operating Funds,” ED-OIG/A05-C0014;
                 March 18, 2003)

                 Our audit of excess reserve funds at ECMC found that the Department had not recalled
                 excess reserve funds totaling about $103 million as of September 30, 2001, leaving them
                 available for ECMC to use for unintended purposes. We recommended that the

                                                                                                           7
Office of Inspector General

                     Department recall the entire $103 million as well as excess reserves in each subsequent
                     year, and clarify its agreement with ECMC. The Department generally concurred with our
                     findings and recommendations. (“Educational Credit Management Corporation’s
                     Administration of the Federal Family Education Loan Program Federal and Operating
                     Funds for the period April 1, 2000 through March 31, 2001,” ED-OIG/A05-D0001; March
                     20, 2003)

                     Our audit of the California Student Aid Commission (CSAC) concluded that CSAC
                     improperly used $7.4 million of its Federal Fund for accrued administrative expenses and
                     $4.5 million of the funds for purchases used to administer the FFEL program. We
                     recommended that the Department require CSAC to reimburse the Federal Fund for these
                     improper expenditures, plus imputed interest. CSAC advised us that a cash transfer was
                     made to the Federal Fund for the lost interest, but did not agree with our other findings and
                     recommendations. (“California Student Aid Commission’s Administration of the Federal
                     Family Education Loan Program Federal and Operating Funds,” ED-OIG/A09-C0013;
                     March 27, 2003)

STRENGTHENING                               Our reviews at two accrediting agencies found that their standards
ACCREDITATION                               for measuring student achievement and program length need to be
STANDARDS                                   strengthened. We suggested several ways that the National
                                            Accrediting Commission of Cosmetology Arts and Sciences
                                            (NACCAS) could strengthen its standards. NACCAS indicated it
                     would refer our suggestions to its advisory committee on standards. (“National
                     Accrediting Commission of Cosmetology Arts and Sciences’ Accreditation Standards for
                     Student Achievement and Measures of Program Length,” ED-OIG/A09-C0019; December
                     19, 2002)

                     We found that the Southern Association of Colleges and Schools (SACS) provided
                     institutions with detailed guidance but did not include specific measures, giving the agency
                     a limited ability to compare institutions’ performance. We offered suggestions for
                     enhancing SACS’ standards and management controls, which SACS indicated it would
                     forward to its board. (“Southern Association of Colleges and Schools, Commission on
                     Colleges’ Accreditation Standards for Student Achievement and Program Length,” ED-
                     OIG/A09-C0018; January 17, 2003)

MEASURING            We reviewed Federal Student Aid’s (FSA) Modernization Partner Agreement to determine
CONTRACTOR           the adequacy of the indicators used to measure contractor performance, to assess the
PERFORMANCE          agreement’s compliance with laws and regulations, and to determine the accuracy of the
                     costs of the products and services provided. The Modernization Partner Agreement
                     between FSA and a contractor was developed to meet statutory requirements for FSA to
                     improve service, reduce costs, and integrate information systems. FSA has obligated
                     nearly $244 million to this Agreement. We found that FSA had not completed an annual
                     review of the Agreement to ensure that it continues to represent the best value for products
                     and services. The Department generally concurred with our findings and
                     recommendations. (“FSA’s Modernization Partner Agreement,” ED-OIG/A07-B0008;
                     November 20, 2002)




 8
                                                                Semiannual Report To Congress: #46

             Other Activities

SECURITY     OIG continues to actively review the Department’s security efforts beyond the IT arena.
             We completed several reviews, including an analysis of our Department safety and
             security survey. We compiled responses to the survey and provided a comprehensive
             report to the Department, requesting a response regarding certain issue areas prior to
             publishing the final survey. (“Results of the 2002 Department of Education Safety and
             Security Survey,” ED-OIG/I13-D0006; January 2, 2003)

             In addition, we completed a review of certain contractor personnel working in the
             Department who did not have proper security clearances appropriate to the work they
             performed, and issued a memorandum to the Department. Our review demonstrated the
             need for the Department to systematically implement its new contractor security clearance
             policy, which was in draft form at the time of our review. The policy will require
             personnel security screenings and risk-level determinations to ensure that contractors have
             clearances appropriate to the work they will perform. (“Clearances for eSource Contract
             Personnel,” ED-OIG/I13-D0005; January 24, 2003)

             We also requested that the Department establish a
             Building Security Committee for one of its buildings,
             as required by the General Services Administration, to
             ensure that safety and security issues are made known
             to the proper officials. The Department has appointed a
             chairman for the committee. (“Review of the Mary E.
             Switzer Building Security Committee,” ED-OIG/I13-D0003; December 2, 2002) We will
             continue our efforts to strengthen the security of the Department’s workforce and physical
             infrastructure.

NONFEDERAL   Participants in Department programs are required to submit annual audits performed by
AUDITS       independent public accountants (IPAs). We perform quality control reviews (QCRs) of
             audits conducted by IPAs to assess the quality of nonfederal audits. We completed 52
             QCRs of audits conducted by 47 different IPAs, or offices of firms with multiple offices.
             We concluded that 34 (65%) were acceptable, 15 (29%) were technically deficient, and 3
             (6%) were substandard. We also referred three IPAs to the appropriate State Boards of
             Accountancy and the American Institute (or State Society) of Certified Public Accountants
             for possible disciplinary action for substandard work. These IPAs were referred for work
             reported in a prior semiannual report.




                                                                                                     9
Office of Inspector General

Reporting Requirements (P.L. 95-452)
                                                                                                 Table    Page
   Section                                            Requirement                               Number   Number
 5(a)(1) and
                Significant Problems, Abuses, and Deficiencies
 5(a)(2)
                Activities and Accomplishments                                                    *        *

 5(a)(3)        Uncompleted Corrective Actions
                Recommendations Described in Previous Semiannual Reports on Which Corrective
                                                                                                  1        11
                Action Has Not Been Completed
 5(a)(4)        Matters Referred to Prosecutive Authorities
                Investigation Services Cumulative Actions (October 1, 2002 to March 31, 2003)     7        22
                Statistical Profile                                                               8        27
 5(a)(5) and                                                                                      **       **
                Summary of Instances Where Information Was Refused or Not Provided
 6(b)(2)
 5(a)(6)        Listing of Audit Reports
                ED/OIG Audit Services Reports on Education Department Programs and Activities     2        13
 5(a)(7)        Summary of Significant Audits
                Activities and Accomplishments                                                    *        *
 5(a)(8)        Audit Reports Containing Questioned Costs
                Inspector General Issued Audit Reports with Questioned Costs                      4        16
 5(a)(9)        Audit Reports Containing Recommendations That Funds Be Put to Better
                Use
                Inspector General Issued Audit Reports with Recommendations for Better Use of
                                                                                                  5        16
                Funds
 5(a)(10)       Summary of Unresolved Audit Reports Issued Prior to the Beginning of
                the Reporting Period
                Unresolved Reports Issued Prior to October 1, 2002                                6        16
 5(a)(11)       Significant Revised Management Decisions                                          **       **
 5(a)(12)       Significant Management Decisions with Which OIG Disagreed                         **       **
   * Information found on pages 1-9 of this report.
   ** No instances to report.




 10
                                                                                         Semiannual Report To Congress: #46

Table 1: Recommendations Described in Previous Semiannual
Reports on Which Corrective Action Has Not Been Completed
                                                                                      Total             Number of             Latest
  Report           Report Title (Prior Semiannual              Date       Date      Monetary         Recommendations          Target
 Number           Report Number [SAR] and Page)               Issued Resolved Findings              Open       Closed          Date
Section 5(a)(3) of the Inspector General Act requires a listing of each report resolved before the commencement of the reporting period
for which management has not completed corrective action. The reports listed below are OIG internal and nationwide audit reports.
NEW AUDITS SINCE LAST REPORTING PERIOD
Office of Postsecondary Education
A04-90013 Office of Higher Education Programs Needs 12/27/00 1/31/02                 *             1             16          8/1/03
          to Improve its Oversight of Parts A and B of
          the Title III Program (SAR 42, pp. 10-11)
Federal Student Aid
A05-A0025 Great Lakes Higher Education Guaranty            3/30/01    1/31/02        *             4              3          6/30/03
          Corporation’s (Great Lakes Guaranty)
          Administration of the Federal Family
          Education Loan (FFEL) Program Federal
          and Operating Funds (SAR 42, p. 22)
Office of the Chief Financial Officer
A03-B0018 Audit of Department Discretionary Grants         10/24/01 3/26/02          *             2              0          6/30/03
          Monitoring Process (SAR 44, p. 3)
Office of Elementary and Secondary Education
A04-A0005 Audit of the Governor’s Program Portion of       3/30/01    3/26/02        *             5              1          7/31/03
          the Safe and Drug-Free Schools and
          Communities Act (SAR 42, p. 21)
Office of the Chief Information Officer
A11-A0011 Audit of the Department’s Records                9/27/01    3/28/02        *             5              2         11/30/03
          Management Program (SAR 43, p. 11)
A11-B0007 Government Information Security Reform            9/7/01    3/28/02        *             11             4          9/30/03
          Act (SAR 43, p. 3)
AUDITS REPORTED IN PREVIOUS SEMIANNUAL REPORTS
Federal Student Aid
A01-90005 The Recertification Process for Foreign          9/29/00    3/31/01        *             1              3          6/30/03
          Schools Needs to Be Improved
          (SAR 41, p. 23)
A17-A0003 Fiscal Year 2000 Annual Financial                2/28/01    6/30/01        *             1             17          6/30/03
          Statements Student Financial Assistance
          (SAR 42, pp. 1-2)
Office of the Chief Financial Officer
A17-A0002 Fiscal Year 2000 Annual Financial                2/28/01    9/30/01        *             1             20          6/30/03
          Statements U.S. Department of Education
          (SAR 42, pp. 1-2)
Office of the Chief Information Officer
A11-90013 Review of Security Posture, Policies and         2/25/00    6/30/00        *             2             11          6/30/03
          Plans (SAR 40, p. 3)
A11-90018 Review of EDNET Security                         7/10/00    3/31/01        *             2             58          5/31/03
          (SAR 41, p. 22)




                                                                                                                                   11
Office of Inspector General

Table 1: Recommendations Described in Previous Semiannual
Reports on Which Corrective Action Has Not Been Completed (Cont.)
                                                                            Total                  Number of               Latest
 Report        Report Title (Prior Semiannual              Date   Date    Monetary              Recommendations            Target
 Number       Report Number [SAR] and Page)               Issued Resolved Findings              Open      Closed            Date
A11-A0005 Review of Planning and Assessment              9/14/00 3/31/01      *                  2           8             6/30/03
          Activities for Presidential Decision Directive
          63 on Critical Infrastructure Protection
          (SAR 41, p. 22)
Office of Postsecondary Education
A04-90014 Review of Title III Program, HEA,              6/30/00 3/31/01           *           **               7             **
            Compliance with GPRA Requirements for
            Implementation of Performance Indicators
            (SAR 41, p. 23)
* Non-monetary.
** Closure request was not received by the Department before reporting period ended (3/31/03).


Table 2: ED/OIG Audit Services Reports on Education Department
Programs and Activities (October 1, 2002 to March 31, 2003)
                                                                                                                Better         No. of
  Report                                                                 Date     Questioned Unsupported Use of Recommen-
  Number                           Report Title                         Issued       Costs*          Costs      Funds         dations
Section 5(a)(6) of the Inspector General Act of 1978 (P.L. 95-452) requires a listing of each report completed by OIG during the
reporting period. During this semiannual reporting period, ED/OIG auditors issued 27 audit reports. In addition, we issued 19
alternative products, which include 2 action memoranda1, 8 alert memoranda2, 2 management information reports3, 1 special project3,
and 6 closeout letters4. The audit reports and alternative products (except for the action and alert memoranda) are listed below.
AUDIT REPORTS
Federal Student Aid
A05-C0014 Educational Credit Management Corporation’s                 3/18/03    $15,096,156                                 10
          Administration of the Federal Family Education Loan
          Program Federal and Operating Funds
A05-C0015 Audit of American School of Technology’s                    3/21/03    $1,311,249                                  13
          Administration of the Title IV, HEA Programs,
          Columbus, Ohio
A05-D0001 Audit of Educational Credit Management Corporation’s        3/20/03 $103,000,000                                    7
          (ECMC) Administration of the Federal Family
          Education Loan (FFEL) program Federal and
          Operating Funds for the period April 1, 2000 through
          March 31, 2001 (OPE also designated as action official
          for this report)
A06-B0025 Arizona Automotive Institute’s Administration of the         1/8/03     $253,006                                    2
          William D. Ford Federal Direct Loan Program
A06-C0018 Gretna Career College’s Administration of the Title IV      12/19/02                 $1,383,470                    6
          Student Financial Assistance Programs
A07-B0008 Audit of FSA’s Modernization Partner Agreement              11/20/02                                                5
          (OCFO also designated as action official for this report)
A09-B0025 United Education Institute’s Administration of Student      12/23/02                                                2
          Financial Assistance Programs




 12
                                                                                  Semiannual Report To Congress: #46

Table 2: ED/OIG Audit Services Reports on Education Department
Programs and Activities (October 1, 2002 to March 31, 2003) (Cont.)
                                                                                                      Better     No. of
 Report                                                            Date      Questioned Unsupported   Use of   Recommen-
 Number                          Report Title                     Issued       Costs*      Costs      Funds      dations
A09-C0013 California Student Aid Commission’s Administration      3/27/03    $15,887,163 $571,809                   8
          of the Federal Family Education Loan Program Federal
          and Operating Funds
A17-C0009 Financial Statement Audits Fiscal Years 2002 and 2001   1/31/03                                         10
          Federal Student Aid (OCFO also designated as action
          official for this report)
A19-C0006 Audit of the Department of Education’s Controls over    10/31/02                                         4
          the Access, Disclosure, and Use of Social Security
          Numbers (SSNs) by Third Parties
Office of the Chief Financial Officer
A02-D0005 Audit of a Contract between Abt Associates Inc. (Abt)   3/28/03
          and the U.S. Department of Education (ED) for the
          Reading Excellence Act School and Classroom
          Implementation and Impact Study
A03-C0001 Contract Closeout Audit of Costs Claimed for Temple     10/25/02                                         1
          University’s (TU) Laboratory for Student Success
          (LSS), Contract Number RJ96006201, for the period
          December 11, 1995, through December 16, 2000
A03-C0020 Audit of Booz Allen Hamilton’s (BAH) Contract           3/31/03
          Awards with the U.S. Department of Education (ED)
A17-C0008 Financial Statement Audits Fiscal Years 2002 and 2001   1/31/03                                         10
          U.S. Department of Education (FSA also designated as
          action official for this report)
A17-D0002 Federal Intragovernmental Activity and Balances         2/6/03
          Agreed-Upon Procedures Report
A17-D0003 Agreed-Upon Procedures Report Fiscal Year 2002          2/6/03
          Federal Agencies’ Centralized Trial-Balance System
Office of the Chief Information Officer
A11-D0001 Phase II Audit of the Department’s Critical             3/28/03                                          7
          Infrastructure Protection (CIP) Program (limited
          distribution due to sensitivity of subject)
A19-B0011 Audit of Controls over Government Calling Cards         10/24/02                                        12
Office of Elementary and Secondary Education
A02-C0019 The Virgin Islands Department of Education-St. Croix 3/31/03                   $1,017,416                7
          School District’s Control of Equipment Inventory
          (OSERS also designated as action official for this
          report)
A05-C0022 Audit of Community Consolidated School District 62’s 2/24/03        $126,709                             3
          (District) Administration of the 21st Century
          Community Learning Centers (21st Century) Grant for
          the period June 1, 2000, through May 31, 2002 (OUS
          also designated as action official for this report)
A06-C0030 Audit of the Migrant Education Program at the Texas 2/4/03                                               3
          Education Agency (TEA)




                                                                                                                       13
Office of Inspector General

Table 2: ED/OIG Audit Services Reports on Education Department
Programs and Activities (October 1, 2002 to March 31, 2003) (Cont.)
                                                                                                       Better     No. of
 Report                                                              Date     Questioned Unsupported   Use of   Recommen-
 Number                         Report Title                        Issued     Costs*       Costs      Funds      dations
Office of Intergovernmental and Interagency Affairs
A17-B0018 Contribution Accounts Delegated to the Assistant         10/18/02      $43                               19
          Secretary for Intergovernmental and Interagency
          Affairs
Office of Postsecondary Education
A04-C0014 Audit of Kentucky State University’s (KSU)            3/12/03        $28,083                              4
          Compliance with the Administration of the Title III,
          Part B, Strengthening Historically Black Colleges and
          Universities Program
A05-C0026 Audit of Northeastern Illinois University’s (NEIU)    2/25/03                   $478,261                  2
          Administration of the Developing Institutions -
          Hispanic-Serving Institutions (HSI) Grant for the
          period October 1, 2000, through October 31, 2002
A07-C0031 Audit of the Talent Search Program at Luther College 3/28/03         $219,567                             4
Office of Special Education and Rehabilitative Service
A06-B0029 Audits of Six Selected States’ Compliance with the   12/19/02                                             3
          Funding Formula Requirements of the Individuals with
          Disabilities Education Act (IDEA)
Office of Vocational and Adult Education
A05-C0021 Audit of the Ohio Department of Rehabilitation and        2/3/03     $270,000                             4
          Correction’s (ODRC) Grants to States for Workplace
          and Community Transition Training for Incarcerated
          Youth Offenders Program (Youth Offenders Program)
          for the period July 1, 1998, through October 31, 2000
ALTERNATIVE AUDIT SERVICES PRODUCTS
Federal Student Aid
A02-B0001 Audit of Foreign Schools’ Cohort Default Rates           10/25/02
          (closeout letter)
A06-C0025 Audit at Miami-Dade Community College (MDCC)             11/1/02
          (closeout letter)
A06-C0027 Audit at Los Angeles ORT Technical Institute (LA         11/1/02
          ORT) (closeout letter)
A06-C0029 Audit of Platt College’s (Platt) Compliance with Title   11/15/02
          IV Student Financial Assistance Requirements
          (closeout letter)
A06-D0002 Audit at The Fashion Institute of Design &                1/8/03
          Merchandising (FIDM) (closeout letter)
A19-C0007 Audit of Federal Student Aid (FSA)                       12/20/02
          Telecommunications Contracts (closeout letter)
Office of Postsecondary Education
A09-C0018 Southern Association of Colleges and Schools,       1/17/03
          Commission on Colleges’ Accreditation Standards for
          Student Achievement and Measures of Program Length
          (Management Information Report)



 14
                                                                                        Semiannual Report To Congress: #46

Table 2: ED/OIG Audit Services Reports on Education Department
Programs and Activities (October 1, 2002 to March 31, 2003) (Cont.)
                                                                                                                 Better       No. of
 Report                                                         Date   Questioned Unsupported                    Use of     Recommen-
 Number                       Report Title                     Issued   Costs*       Costs                       Funds        dations
A09-C0019 National Accrediting Commission of Cosmetology Arts 12/19/02
          and Sciences’ Accreditation Standards for Student
          Achievement and Measures of Program Length
          (Management Information Report)
Office of the Secretary (OS/OUS/ODS)
S03-D0005 Office of Inspector General’s Independent Report on  1/30/03
          the U.S. Department of Education’s Detailed
          Accounting of Fiscal Year 2002 Drug Control Funds,
          dated January 23, 2003 (Authentication of ED’s
          Assertions OIG conducted per Office of National Drug
          Control Policy)
  * For purposes of this schedule, “questioned costs” also includes “other recommended recoveries.”
  1Action memoranda notify the Department's management of a serious condition or issue requiring immediate attention that we
  identified in an on-going assignment, when there is a strong likelihood that waiting until the report’s issuance to notify the ED
  action official would result in the loss of an opportunity to prevent or curtail significant harm to the federal interest. They are not
  posted on our website.
  2Alert memoranda are prepared when a serious condition is identified outside of the agreed-upon objectives of an on-going
  assignment, or while doing work not related to an on-going assignment (when an audit report will not be issued). They are also
  used during the conduct of an audit of an external entity when a serious condition is identified at the Departmental level and needs
  to be forwarded to an ED action official for his/her immediate action. Alert memoranda are not posted on our website.
  3Management information and special project reports provide management with information that can be useful in carrying out
  program activities.
  4Closeout letters are issued to provide written notification to auditees of audit closure when the decision is made to close an
  assignment without issuing an audit report. Closeout letters are not posted on our website.



Table 3: Other ED/OIG Reports on Education Department Programs
and Activities (October 1, 2002 to March 31, 2003)
   Report Number                                          Title of Report                                              Date Issued
     I13C0013             Review of the Department’s Physical Security Comprehensive Plan                                       10/23/02
      I13D0003            Review of the Mary E. Switzer Building Security Committee                                              12/2/02
      I13D0006            Results of the 2002 Department of Education Safety and Security Survey                                  1/2/03
      I13D0005            Clearances for eSource Contract Personnel                                                              1/24/03
      I13D0002            New Hire Review Results                                                                                1/30/03
       I13C0023           Inquiry Phase for the Transition to Teaching Program                                                    2/6/03
       I13C0014           Review of the Department of Education’s Annual Plan 2002-2003 Reveals Strengths                         2/7/03
                          and Areas for Improvement
       I13C0015           Graduation Rates for Two-Year Postsecondary Institutions                                               3/19/03
       I13C0017           Memorandum on Workforce Analysis and Succession Planning for the Office of                             3/20/03
                          Inspector General Analysis and Inspection Services Staff




                                                                                                                                      15
Office of Inspector General

Table 4: Inspector General Issued Audit Reports with Questioned
Costs
                                                                                            Number        Questioned1      Unsupported2
A.         For which no management decision has been made before the                            53         $203,579,492      $45,114,089
           commencement of the reporting period (as adjusted)
B.         Which were issued during the reporting period                                        13         $139,642,932       $3,450,956
               Subtotals (A + B)                                                                66         $343,222,424      $48,565,045
C.         For which a management decision was made during the reporting period                 12          $49,868,456       $3,429,591
           (i) Dollar value of disallowed costs                                                             $49,838,456       $3,402,591
           (ii) Dollar value of costs not disallowed                                                            $30,000          $27,000
D.         For which no management decision has been made by the end of the                     54         $293,353,968      $45,135,454
           reporting period
E.         For which no management decision was made within six months of issuance              42         $153,711,079      $41,684,498
     1Questioned costs are costs that are questioned because of either an alleged violation of a provision of a law, regulation, contract,
     grant, cooperative agreement, or other agreement or document governing the expenditure of funds or a finding that the
     expenditure of funds for the intended purpose is unnessary or unreasonable. Other recommended recoveries are included in
     questioned costs. Other recommended recoveries are funds recommended for reasons other than questioned or unsupported
     costs. The category is usually used for findings involving recovery of outstanding funds and/or revenue earned on Federal funds.
     The amount also includes any interest due ED resulting from the auditee’s use of funds. Amounts reported for this category are
     combined with questioned costs for reporting in the IG’s Semiannual Report to Congress.
     2Unsupported costs are costs that are questioned because, at the time of the audit, such costs were not supported by adequate
     documentation.


Table 5: Inspector General Issued Audit Reports with
Recommendations for Better Use of Funds
                                                                                                      Number              Dollar Value
No Activity to Report

Table 6: Unresolved Reports Issued Prior to October 1, 2002
                                                                                                                  Total    No. of
 Report                                        Report Title                                            Date     Monetary Recommen-
 Number                     (Prior Semiannual Report [SAR] Number and Page)                           Issued    Findings   dations
Section 5(a)(10) of the Inspector General Act requires a listing of each report issued before the commencement of the reporting period
for which no management decision had been made by the end of the reporting period.
New Since Last Reporting Period
Federal Student Aid
A03-B0013 Audit of the Ability-to-Benefit (ATB) Testing Process at Lincoln Technical           5/10/02           $256,946          9
          Institute, Inc. (LTI), Philadelphia, PA (SAR 45, p. 16)
          Status: Audit was placed on administrative stay on October 15, 2002. A file review
          was requested and is being undertaken before resolution can begin.
A03-B0024 Audit of American College Testing’s Ability-to-Benefit (ATB) Policies and            5/13/02                             12
          Procedures for its Career Programs Assessment Test (CPAt) (SAR 45, p. 16)
          Status: FSA/CFO is currently working on getting an approved final audit
          determination letter sent out.
A04-B0015 Review of Cash Management and Student Financial Assistance Refund Procedures 9/26/02                   $997,313          7
          at Bennett College (OPE designated as collateral action office for this report) (SAR
          45, p. 16)
          Status: Program office informed us that the audit is resolved. It will be removed in
          the next Semiannual Report.

 16
                                                                                     Semiannual Report To Congress: #46

Table 6: Unresolved Reports Issued Prior to October 1, 2002 (Cont.)
                                                                                                             Total    No. of
 Report                                      Report Title                                         Date     Monetary Recommen-
 Number                 (Prior Semiannual Report [SAR] Number and Page)                          Issued    Findings   dations
A05-B0019 Audit of Course Length at Trinity Christian College (Trinity) (SAR 45, p. 16)          9/17/02   $111,061      3
          Status: Audit was placed on administrative stay on October 15, 2002. FSA and
          OPE will be working with OGC on a settlement agreement with this school now
          that regulatory changes have been made about course length.
A05-B0033 United Student Aid Funds, Inc.’s Administration of the Federal Family Education        4/23/02   $6,626,000    4
          Loan Program Federal and Operating Funds (SAR 45, p. 16)
          Status: Program office is working on resolving this audit.
A05-B0037 Audit of the Administration of the Student Financial Assistance Programs by            7/23/02     $4,366      4
          Aakers Business College (College) during the period October 1, 1998, through
          September 30, 1999 (SAR 45, p. 16)
          Status: Program office informed us that the audit is resolved. It will be removed in
          the next Semiannual Report.
A05-B0040 Audit of the Administration of Selected Aspects of the Student Financial Assistance    8/7/02     $61,466      3
          Programs by Globe College (College) during the period January 1, 1999, through
          December 31, 1999 (SAR 45, p. 16)
          Status: Program office informed us that the audit is resolved. It will be removed in
          the next Semiannual Report.
A06-A0024 Audit of Commissioned Sales and Course Length at Southern Wesleyan University          9/4/02    $19,451,123   5
          (SAR 45, p. 16)
          Status: Audit was placed on administrative stay on October 11, 2002. FSA and
          OPE will be working with OGC on a settlement agreement with this school now
          that regulatory changes have been made about commissioned sales and course
          length.
A07-A0030 Baker University School of Professional and Graduate Study’s Administration of         9/19/02 $15,716,275     7
          Title IV Federal Student Aid Programs (SAR 45, p. 17)
          Status: Audit was placed on administrative stay on October 11, 2002. FSA and
          OPE will be working with OGC on a settlement agreement with this school now
          that regulatory changes have been made about commissioned sales.
A07-A0031 Fontbonne University Options Program’s Administration of Title IV Federal              9/30/02 $12,441,490     7
          Student Aid Programs (SAR 45, p. 17)
          Status: Audit was placed on administrative stay on October 11, 2002. FSA and
          OPE will be working with OGC on a settlement agreement with this school now
          that regulatory changes have been made about commissioned sales.
A07-B0002 Audit of the National Student Loan Program’s Establishment of the Federal Family       9/27/02   $2,672,941    10
          Education Loan Program Federal and Operating Funds (SAR 45, p. 17)
          Status: Program office is working on resolving this audit.
A09-C0005 Silicon Valley College’s Administration of the Higher Education Act, Title IV          9/20/02      $436       6
          Programs (SAR 45, p. 17)
          Status: Program office informed us that the audit is resolved. It will be removed in
          the next Semiannual Report.
Office of the Chief Financial Officer
A07-C0008 Contract Closeout Audit of Office of Educational Research and Improvement       9/12/02           $320,195     4
          Contract No. RJ96006501 at Northwest Regional Educational Laboratory (SAR 45,
          p. 17)
          Status: ED received a check in the amount of $324,845.61 dated 5/6/02 which was
          taken to accounts receivable on 5/31/02. This item will be removed in the next
          Semiannual Report.




                                                                                                                              17
Office of Inspector General

Table 6: Unresolved Reports Issued Prior to October 1, 2002 (Cont.)
                                                                                                           Total    No. of
 Report                                     Report Title                                        Date     Monetary Recommen-
 Number                  (Prior Semiannual Report [SAR] Number and Page)                       Issued    Findings   dations
Office of the Chief Financial Officer (dealing with discretionary grants) Office of Innovation and Improvement
A05-C0011 Audit of the Public Broadcasting Service’s (PBS) Administration of the              9/10/02    $149,430     5
          TeacherLine Grant No. R286A000003-01 (Grant) awarded under the
          Telecommunications Demonstration Project for Mathematics for the period June 1,
          2000, through May 31, 2001 (SAR 45, p. 18)
          Status: Post Audit Group, OCFO, and OII have been working on issues involving
          unsupported costs. A final audit determination letter is expected by June 30, 2003.
A05-C0020 Audit of the Public Broadcasting Service’s (PBS) Administration of the Ready-To- 9/10/02       $140,716     4
          Learn Cooperative Agreement No. R295A000002 (Agreement) awarded under the
          Department of Education’s Ready-To-Learn Television Program for the period
          September 1, 2000, through August 31, 2001 (SAR 45, p. 18)
          Status: Post Audit Group, OCFO, and OII have been working on issues involving
          unsupported costs. A final audit determination letter is expected by June 30, 2003.
Office of the Chief Financial Officer (dealing with discretionary grants) Office of Postsecondary Education
A03-B0026 Audit of Delaware State University’s Administration of the Title III Strengthening 7/11/02                  7
          Institutions HBCU Program (SAR 45, p. 18)
          Status: Program office informed us that the audit is resolved. It will be removed in
          the next Semiannual Report.
A05-B0035 Audit of Robert Morris College’s Administration of the Talent Search, Upward         9/27/02    $20,151     12
          Bound, and Student Support Services Programs Chicago, Illinois (SAR 45, p. 18)
          Status: Post Audit Group, OCFO expects to issue final audit determination letter by
          June 30, 2003.
Office of the Chief Financial Officer (dealing with discretionary grants) Office of Special Education and
Rehabilitative Services
A06-B0028 Allowability of Office of Special Education and Rehabilitative Services’ Grant      5/23/02     $62,720     5
          Charges by Partners Resource Network, Inc., Beaumont, Texas (SAR 45, p. 19)
          Status: Post Audit Group, OCFO, and OSERS are requesting legal advice from
          OGC regarding issue raised by auditee.
Office of the Chief Information Officer
A11-C0008 The Department of Education’s Implementation of the Government Information           9/16/02                26
                                               1 (SAR 45, p. 17)
          Security Reform Act (GISRA) Year 2
          Status: Program office informed us that the audit is resolved. It will be removed in
          the next Semiannual Report.
Office of Elementary and Secondary Education
A02-B0025 Puerto Rico Department of Education Did Not Administer Properly Three              9/12/02     $2,146,023   10
          Contracts with R.V. Research and Management Group, Inc. (SAR 45, p. 18) Status:
          A Department team is working on the resolution of this audit.
A03-B0023 Audit of Caroline Wilder Harris (C.W. Harris) Elementary School’s Federal Grant 9/17/02         $43,159     2
          Expenditures for the period July 1, 1999, through June 30, 2001 (SAR 45, p. 18)
          Status: A final audit determination letter was scheduled to be issued by April 30,
          2003.
A05-B0011 Audit of the Title I, Part A, Targeted Assistance Schools Grant (Grant)            8/2/02      $459,331     4
          Administered by the Mount Clemens Community Schools District (District) for the
          July 1, 1997, through June 30, 1998, Award Year (SAR 45, p. 18)
          Status: Audit was placed on administrative stay on April 2, 2003.




 18
                                                                                     Semiannual Report To Congress: #46

Table 6: Unresolved Reports Issued Prior to October 1, 2002 (Cont.)
                                                                                                              Total    No. of
 Report                                      Report Title                                     Date          Monetary Recommen-
 Number                 (Prior Semiannual Report [SAR] Number and Page)                      Issued         Findings   dations
A05-C0012 Audit of East Cleveland City Schools’ (ECCS) Administration of the 21st Century 9/18/02           $349,637      9
          Community Learning Centers (21st Century) Grant at Kirk Middle School (Kirk)
          for the period June 1, 1998, through December 31, 2001 (SAR 45, p. 18)
          Status: A final audit determination letter was scheduled to be issued by April 30,
          2003.
Office of Special Education and Rehabilitative Services
A02-B0014 Audit of the Puerto Rico Vocational Rehabilitation Administration (PRVRA) (SAR 6/26/02 $15,800,000             5
          45, p. 18)
          Status: The program office is working on resolving this audit.
Reported in Previous Semiannual Report
Federal Student Aid
A03-A0022 Audit of Commissioned Sales and Course Length at Wesley College                        1/15/02    $1,431,560   5
          (SAR 44, p. 14)
          Status: Audit was placed on administrative stay on January 29, 2002. FSA and
          OPE will be working with OGC on a settlement agreement with this school now
          that regulatory changes have been made about commissioned sales and course
          length.
A03-B0022 Audit of Wonderlic’s Ability-to-Benefit Program (SAR 44, p. 14)                         2/5/02                 4
          Status: FSA/CFO is working in getting an approved final audit determination letter
          sent out.
A05-A0030 Audit of Commissioned Sales at Olivet Nazarene University (SAR 43, p. 11)              5/21/01    $3,299,891   4
          Status: Audit was placed on administrative stay on July 26, 2001. FSA and OPE
          will be working with OGC on a settlement agreement with this school now that
          regulatory changes have been made about commissioned sales.
A05-B0003 Audit of Commissioned Sales and Course Length at Benedictine University (SAR           12/13/01   $221,988     5
          44, p. 14)
          Status: Audit was placed on administrative stay on March 19, 2002. FSA and OPE
          will be working with OGC on a settlement agreement with this school now that
          regulatory changes have been made about commissioned sales and course length.
A05-B0004 Indiana Wesleyan University, Adult and Professional Studies Administration of          9/28/01 $31,682,782     5
          Title IV Programs, Marion, Indiana (SAR 43, p. 11)
          Status: Audit was placed on administrative stay on October 24, 2002. FSA and
          OPE will be working with OGC on a settlement agreement with this school now
          that regulatory changes have been made about commissioned sales and course
          length.
A05-B0014 Audit of Course Length at Olivet Nazarene University (SAR 43, p. 12)                   9/28/01                 4
          Status: Audit was placed on administrative stay on October 24, 2001. FSA and
          OPE will be working with OGC on a settlement agreement with this school now
          that regulatory changes have been made about course length.
A06-70005 Professional Judgment at Yale University (SAR 36, p.18)                                3/13/98     $5,469      3
          Status: Audit was placed on administrative stay on June 29, 2000. Awaiting a
          policy decision to address and resolve this finding in the final audit determination
          letter.
A06-70009 Professional Judgment at University of Colorado (SAR 37, p.17)                         7/17/98     $15,082     4
          Status: Audit was placed on administrative stay on June 29, 2000. Awaiting a
          policy decision to address and resolve this finding in the final audit determination
          letter.




                                                                                                                             19
Office of Inspector General

Table 6: Unresolved Reports Issued Prior to October 1, 2002 (Cont.)
                                                                                                                Total    No. of
 Report                                        Report Title                                         Date      Monetary Recommen-
 Number                 (Prior Semiannual Report [SAR] Number and Page)                            Issued     Findings   dations
A06-A0001 Interactive Learning Systems’ Administration of the Title IV Student Financial           7/20/01    $990,828      7
          Assistance Programs (SAR 43, p. 12)
          Status: Audit is still being reviewed by FSA Dallas Case Team.
A06-A0003 International Business College’s Administration of Title IV Student Financial            3/28/01    $461,035     4
          Assistance Programs (SAR 42, p. 22)
          Status: Audit was placed on administrative stay on September 24, 2001.
A06-B0012 Audit of Los Angeles City College’s Compliance with the Title IV, Student                11/14/01    $14,072     3
          Financial Assistance, Verification Requirements (SAR 44, p. 15)
          Status: Program office informed us that audit is resolved. It will be removed in the
          next Semiannual Report.
A06-B0014 Audit of United Education Institute’s Compliance with the Title IV, Student              9/28/01     $7,285      1
          Financial Assistance, Verification Requirements (SAR 43, p. 12)
          Status: Audit is still being reviewed by the FSA San Francisco Case Team.
A07-23545 State of Missouri, Single Audit Two Years Ended June 30, 1991                             4/1/93    $1,048,768   18
          Status: Some of the findings involve political issues and require further discussions
          with the General Manager and Chief Operating Officer.
A07-33123 State of Missouri, Single Audit Year Ended June 30, 1992                                  3/7/94    $187,530     18
          Status: Some of the findings involve political issues and require further discussions
          with the General Manager and Chief Operating Officer.
A07-90035 Audit of Commissioned Sales at William Penn University (SAR 43, p. 12)                   5/15/01    $5,023,447   4
          Status: Audit was placed on administrative stay on August 1, 2001. FSA and OPE
          will be working with OGC on a settlement agreement with this school now that
          regulatory changes have been made about commissioned sales.
A07-B0001 Audit of Course Length at William Penn University (SAR 43, p. 12)                        9/28/01                 4
          Status: Audit was placed on administrative stay on October 24, 2001. FSA and
          OPE will be working with OGC on a settlement agreement with this school now
          that regulatory changes have been made about course length.
A09-70015 Associated Technical College (ATC) Eligibility of Institutions to Participate in Title    9/9/98    $8,600,000   7
          IV Programs & Other Issues (SAR 37, p. 16)
          Status: Audit is still being reviewed by FSA San Francisco Case Team.
N06-90010 Inspection of Parks College’s Compliance with Student Financial Assistance                2/9/00    $169,390     1
          Requirements (SAR 40, p. 18)
          Status: FSA Dallas Case Team denied school’s recertification on December 31,
          1999. School closed February 5, 2000.
Office of the Chief Financial Officer (dealing with discretionary grants) Office of Postsecondary Education
A05-A0026 Audit of Richard J. Daley College’s Administration of Selected Aspects of Its        3/30/01        $1,621,861   2
          Strengthening Institutions - Hispanic Serving Institution Program, Chicago, Illinois
          (SAR 42, p. 21)
          Status: Post Audit Group, OCFO is awaiting college’s response for additional data.
Office of Elementary and Secondary Education
A01-90006 Puerto Rico Department of Education Needs Major Improvements in Its            9/27/00              $181,305     18
          Administration of the Even Start Program (SAR 41, p. 22)
          Status: A Department team is working on the resolution of this audit.
A01-90007 Puerto Rico Department of Education Needs Major Improvements in Its            9/27/00               $82,452     17
          Administration of the Governor’s Safe and Drug-Free School Program (SAR 41, p.
          22)
          Status: A Department team is working on the resolution of this audit.




 20
                                                                                       Semiannual Report To Congress: #46

Table 6: Unresolved Reports Issued Prior to October 1, 2002 (Cont.)
                                                                                                               Total   No. of
 Report                                    Report Title                                           Date      Monetary Recommen-
 Number                 (Prior Semiannual Report [SAR] Number and Page)                          Issued      Findings  dations
A01-A0004 Puerto Rico Department of Education Did Not Administer Properly a $9,700,000           3/28/01    $7,841,493   14
          Contract with National School Services of Puerto Rico (SAR 42, p. 21)
          Status: A Department team is working on the resolution of this audit.
A02-50200 The Puerto Rico Department of Education Must Institute a Time Distribution             11/14/97                   1
          System (SAR 36, p. 13)
          Status: A Department team is working on the resolution of this audit.
A02-B0012 Puerto Rico Department of Education Did Not Administer Properly Title I                9/28/01    $8,412,280      10
          Contracts with National School Services of Puerto Rico for the 1999/2000 and
          2000/2001 School Years (SAR 43, p. 11)
          Status: Audit was placed on administrative stay on February 7, 2002. A
          Department team is working on the resolution of this audit.
Office of Special Education and Rehabilitative Services
A04-A0015 The Virgin Islands Government Lacks Adequate Management Controls Over the        7/25/01          $4,702,542      15
          Administration of Its IDEA, Part B Grant Program Salary Costs (SAR 43, p.p. 11)
          Status: Audit was placed on administrative stay on January 15, 2002. The program
          office is working on resolving the audit findings.
   1Restricted Information.

   Note - Status comments reflect documnets received, comments agreed to, or comments provided by the Department.


Table 7: Investigation Services Cumulative Actions
(October 1, 2002 to March 31, 2003)
                                                                                                              Fines/       Civil
                 Summary of Investigation                          Subject Name     Action This Period*     Restitutions Recoveries
INSTITUTIONAL FRAUD
Collection Agency Fraud
Officials of firm that contracted with 200 schools to collect     Ronald Unger      Sentenced: 10/1/02      $1,009,190
defaulted Perkins loans used approximately $1.25 million in       Arlene Unger      Sentenced: 10/1/02
client trust funds for personal and general operating expenses    Donald Hess       Sentenced: 10/1/02
Failure to Make Refunds/Refund Fraud
College controller embezzled over $72,000                         Zennia Hayes      Convicted: 1/30/03
School owner failed to refund unearned FFEL proceeds              Jeffrey Saleeby   Sentenced: 2/26/03        $15,433
Instructing Students How to Falsify FAFSAs
Former admissions representatives coached and assisted            Theresa Leon      Indicted: 10/17/02
students to falsify their FAFSA to qualify them for $434,000 in   Irma Warren       Indicted: 10/17/02
Pell Grant funds for which they were not eligible
Former admissions representatives coached and assisted          Jaime Hurtado       Indicted: 10/24/02
students to falsify their FAFSA to qualify them for $164,000 in Maria Mena          Indicted: 10/24/02
Pell Grant funds for which they were not eligible               Henry Leger         Indicted: 10/24/02
Former adminissions representatives coached and assisted        Andrea Garrote      Indicted: 3/11/03
students to falsify their FAFSA to qualify them for $263,000 in Maria Garcia        Indicted: 3/11/03
Pell Grant funds for which they were not eligible               Andrea Mongalo      Indicted: 3/11/03
Enrollment of Ineligible Students
Financial aid director submitted false documents enabling        Rochelle           Sentenced: 11/7/02       $600,000
ineligible students to get over $1.3 million in Pell Grant funds Shumpert Harris



                                                                                                                                 21
Office of Inspector General

Table 7: Investigation Services Cumulative Actions
(October 1, 2002 to March 31, 2003) (Cont.)
                                                                                                          Fines/       Civil
                 Summary of Investigation                        Subject Name     Action This Period*   Restitutions Recoveries
Ineligible Program
Debarred school owner used alias to open another school         Carlos Alvarez    Arrested: 12/19/02
Falsification of Attendance
Director of business operations led file review process where   Cynthia Ghany     Convicted: 10/8/02     $120,000
school staff created false attendance records                                     Sentenced: 12/16/02
Four former school officials defrauded Pell Grant program by    Patricia Donawa   Sentenced: 12/19/02    $659,328
creating false student attendance and grade records             Kelvin Alexis     Sentenced: 12/19/02    $659,328
                                                                Thomas Koons      Sentenced: 12/19/02
                                                                Carlos Alvarez    Sentenced: 12/19/02    $444,000
Falsification of GED or High School Diplomas
Former school employee defrauded Pell Grant program by          Barbara           Convicted: 1/28/03      $27,100
submitting false high school diplomas and other documents       Henderson         Sentenced: 1/28/03
Admissions director created false GEDs and and diplomas to      Pamela Broome     Sentenced: 2/14/03      $26,177
fraudulently enroll students
Fraudulent Work-Study
Former Work-Study coordinator created false overtime cards      Teresa Nethery    Convicted: 12/19/02
and diverted funds to personal use
Former professor falsified certified timesheets                 Roger Prolux      Sentenced: 3/20/03      $62,785     $20,636
Falsification of Enrollment (Ghost Students)
Individual posing as school owner fraudulently obtained more Carlos Alvarez       Indicted: 1/28/03
than $1.7 million in Pell Grants
Falsification of Entrance Exams
Owner and employeess of Michigan school defrauded the           Mahmoud Younis Indicted: 1/15/03
Department of $875,000 in student financial aid funds           Linda Johnson   Indicted: 10/22/02
                                                                                Convicted: 11/12/02
                                                                Ambrosio Santos Convicted: 12/22/02
                                                                                Sentenced: 12/22/02
                                                                                Civil Action:12/22/02
                                                                Walid Alsabbagh Indicted: 1/15/03
                                                                Jamal Mourtada Indicted: 1/15/03
                                                                Sahar Younes    Indicted: 1/15/03
                                                                Muna Jaber      Indicted: 1/15/03
                                                                Mariam Chbib    Indicted: 1/15/03
                                                                Chbib
                                                                Samira          Indicted: 1/15/03
                                                                Mouzahem
                                                                Gregory Moore Indicted: 10/24/02
                                                                                Convicted: 1/21/03
School Employee Theft
Former school official embezzled over $15,000                   Samuel Padilla    Arrested: 10/6/02       $15,103
                                                                                  Convicted 1/16/03
                                                                                  Sentenced: 2/18/03
Former school employee stole Pell Grant funds and deposited     Patrice Smith     Indicted: 10/23/02      $6,831
money in personal checking account                                                Convicted 2/3/03
                                                                                  Sentenced: 2/3/03

 22
                                                                                      Semiannual Report To Congress: #46

Table 7: Investigation Services Cumulative Actions
(October 1, 2002 to March 31, 2003) (Cont.)
                                                                                                            Fines/       Civil
                  Summary of Investigation                         Subject Name Action This Period*       Restitutions Recoveries
Assistant financial aid director fraudulently obtained $26,000    Linda Mrochinski Convicted: 11/20/02     $28,097
in student aid                                                                     Sentenced: 3/17/03
Former college employee stole approximately $30,000 in            Cynda Long       Convicted: 1/31/03
student loan money
School official defrauded FFEL program of more than               Raymond Krull    Sentenced: 10/2/02      $163,670
$200,000
Former chief financial officer stole refund checks issued to      Cedric Grant     Sentenced: 2/28/03       $43,400
ghost students
Former financial aid director submitted false loan applications
                                                             Keith Magee           Indicted: 3/18/03
Former school employees used false SSN to obtain aid         Richelle Simpson      Sentenced: 2/18/03      $287,500
                                                             Erick Simpson         Sentenced: 2/18/03
University employee stole approximately $118,000 from school Glenda Lee            Convicted: 2/6/03
                                                             Shirley
Collusion Between Officials and Students
Student involved in Pell Grant fraud                              Rachel Rodriguez Sentenced: 10/25/02      $2,268
Former financial aid official conspired to obtain more than       Holly Clements- Indicted:12/06/02
$60,000 in Pell Grants for ineligible students                    Chavira          Arrested: 12/10/02
RECIPIENT FRAUD
Falsification of Income
CIA Human Resource Director submited false FAFSA                  Karen Northart  Indicted: 10/17/02        $8,500
                                                                                  Convicted: 10/28/02
                                                                                  Sentenced: 1/24/03
Individual falsely claimed marital status to obtain aid           David Seltzer   Civil Action: 3/25/03                 $15,851
Spouse assisted in falsifying FAFSA                               Wayne Northart Indicted: 10/17/02
                                                                                  Convicted: 10/28/02
                                                                                  Sentenced: 1/24/03
Former Chicago police officer submited false student aid          William Lumpkin Sentenced: 1/9/03         $15,142
applications
Cook County Illinois correction officer submitted false student Delphine Bridges Sentenced: 1/10/03         $18,061
aid application
Individual under reported income                                Vetevely Stephons Convicted: 1/23/03
Student used identity of friend to obtain aid                   N. Lonnie         Convicted: 11/25/02       $49,508
                                                                Webster           Sentenced: 2/11/03
Student used deceased husband’s name to obtain aid              Donna Hites       Sentenced: 2/20/03
Falsification of Identity/Identity Theft
Individual defaulted on $39,000 in loans then used false identity Michael Wayne    Indicted: 12/10/02
and SSN to fraudulently get over $34,000 in loans                 Jennings         Arrested: 12/11/02
Individual used false identity to obtain $18,500 in student loans George Waters    Convicted: 11/25/02      $54,104
                                                                                   Sentenced: 1/28/03
Illegal alien fraudulently used identity of U.S. citizen to obtain Rolando Lara    Sentenced: 10/30/02      $34,954
over $34,000 in student aid
Individual defaulted on student loans, then used another SSN to Michael Wildman Arrested: 10/22/02
obtain more loans                                                                 Indicted: 10/22/02
Individual used false identity in check-cashing fraud              Jamillah Allen Convicted: 11/5/02
                                                                   Shonda Feggins Convicted: 11/5/02


                                                                                                                              23
Office of Inspector General

Table 7: Investigation Services Cumulative Actions
(October 1, 2002 to March 31, 2003) (Cont.)
                                                                                                               Fines/       Civil
                  Summary of Investigation                      Subject Name           Action This Period*   Restitutions Recoveries
Individual defaulted on student loans, then used false SSN to Willie Reed             Indicted: 1/14/03
obtain more loans and grants                                                          Convicted: 3/24/03
Former MacArthur Scholar used false identity to obtain student Maria Bonner           Sentenced: 1/23/03      $487,396
aid
Former civilian U.S. Army employee used false social security Hans Alagoa             Convicted: 12/17/02      $37,659
numbers to obtain loans                                                               Sentenced: 2/27/03
Falsification of Citizenship
Individual obtained approximately $47,000 in Pell Grant and        Ruth Jean Baptiste Convicted: 10/2/02
FFEL funds by falsifying citizenship on multiple applications
Individual obtained over $31,000 in aid by claiming to be a U.S.   Alondra Patricia   Convicted: 10/3/02       $31,566
citizen                                                            Ruiz               Sentenced: 1/6/03
Individual falsely claimed citizenship to obtain aid               Themla Gener       Indicted: 2/12/03
Falsification of Eligibility
Individual on probation for federal crime submited false GED Robert Donahue           Arrested: 12/10/02
to fraudulently obtain $10,000 in loans                                               Convicted: 1/17/03
Foreign School Recipient Fraud
Two individuals conspired with fraud ring to obtain $146,500       Harold Pierre-     Indicted: 3/4/03
                                                                   Louis
                                                                   Max Noel           Indicted: 3/4/03
Fraudulent Work-Study
Former student stole over $6,000 in Work-Study funds by            Jessica Hook       Convicted: 10/16/02
submitting forged time sheets
Student forged Federal Work-Study time cards                       Sohrab Attai       Arrested: 10/18/02       $1,895
                                                                                      Indicted: 11/22/02
                                                                                      Convicted: 12/18/02
                                                                                      Sentenced: 12/18/02
Fraudulent Loan Discharges/Deferments
U.S. Postal Service employee forged doctor’s signature to          Tonya Ryans        Indicted: 11/13/02
fraudulently cancel student loan debt
Individual submited false claims for deferment of loan             David Venezia      Civil Settlement:                    $55,000
payments                                                                              10/31/02
Fraudulent Online Schooling
Prison inmate submitted false form for himself and other           Avangia Jones      Arrested: 12/3/02
inmates to obtain student aid for online courses
Other
Individual stole over $78,000 to pay student loans for her         Ann Glasthal       Sentenced: 10/17/02      $78,179
husband and son
Individual reported checks stolen to obtain aid                    Terrance Leonard Arrested: 3/5/03
                                                                   Kenner
FINANCIAL AID PREPARER FRAUD
Clients Prosecuted
Client paid a financial aid consultant to falsify financial aid    Dorothy Stephens Sentenced: 11/27/02        $23,410
forms and federal tax returns to obtain student aid for her
daughter



 24
                                                                                       Semiannual Report To Congress: #46

Table 7: Investigation Services Cumulative Actions
(October 1, 2002 to March 31, 2003) (Cont.)
                                                                                                            Fines/       Civil
                   Summary of Investigation                       Subject Name      Action This Period*   Restitutions Recoveries
Chicago teacher falsified financial aid forms and federal income Lloyd Norman       Convicted: 1/29/03
tax returns to obtain student aid for her child and used
fraudulent preparer to create false documents
Clients of preparer falsified aid applications                   Edna Clemons       Sentenced: 3/18/03      $16,280
                                                                 Neely Clemons      Sentenced: 3/18/03      $16,280
Preparers Prosecuted
Consultant advised and assisted families in preparing and      Ozel Clifford        Indicted: 10/31/02
submitting false FAFSAs                                        Brazil               Convicted: 2/21/03
NON-TITLE IV PROGRAM FRAUD
Individual illegally diverted $900,000 in Impact Aid            Stateson Francois   Arrested: 10/23/02
Former director of AIDS foundation embezzled $72,000 in         Silma Magaz-        Convicted: 10/8/02      $74,100
foundation funds                                                Escoda Gonzalez     Sentenced: 1/20/03
Former Secretary and Associate Secretary of Education for       Victor Fajardo      Sentenced: 12/11/02   $4,300,000
Puerto Rico involved in six-year corruption and extortion       Velez
involving Department funds                                      Jose Omar Cruz      Sentenced: 12/11/02    $600,000
                                                                Mercado
                                                                Ruperto Vazquez     Sentenced: 12/12/02    $800,000
                                                                Lopez
                                                                Maria Ramos         Sentenced: 12/12/02    $123,000
                                                                Matos
Individual embezzled Vocational Rehabilitation funds            Bruce Waite**       Sentenced: 10/21/02                $285,568
Former administrative assistant to an Oklahoma school district Mellissa Schrick     Sentenced: 2/27/03     $261,959
treasurer fraudulently obtained checks drawn on school
district’s various funds
Former Title III Director at Clark Atlanta University embezzled Robbie Bateman      Convicted: 3/11/03
Title III funds
Former employees of Florida Vocational Rehabilitation           Michelle            Indicted: 3/25/03
Services fraudulently obtained VRS benefits for their sons      Abrajano
                                                                Jerald Means        Indicted: 3/25/03
                                                                Twanda Ross         Indicted: 3/25/03
Four officials of the Massachusetts Career Development          Gerald Phillis      Indicted: 3/27/03
Institute defrauded the State education agency and obstructed Giuseppi              Indicted: 3/27/03
justice                                                         Polemeni
                                                                Jamie Dwyer         Indicted: 3/27/03
                                                                Luisa Cardaropoli   Indicted: 3/27/03
INTERNAL INTEGRITY
Department employee possessed child pornography on            Robert Jamroz         Indicted: 1/28/03
government computer                                                                 Convicted: 2/27/03
Department contractors involved in over $1 million electronic William Cousin        Sentenced: 1/23/03      $5,760
equipment and overtime fraud case                             Joseph Morgan         Sentenced: 1/23/03      $2,928
Employees of Verizon Federal involved in over $1 million      Verizon Federal,      Civil Settlement:                  $2,000,000
electronic equipment and overtime fraud case                  Inc.                  2/6/03
Former Department employee involved in over $1 million        Raymond Morgan        Sentenced: 1/7/03
electronic equipment and overtime fraud case                  Jr.




                                                                                                                              25
Office of Inspector General

Table 7: Investigation Services Cumulative Actions
(October 1, 2002 to March 31, 2003) (Cont.)
                                                                                                                Fines/       Civil
                Summary of Investigation                           Subject Name      Action This Period*      Restitutions Recoveries
Department employees illegally charged over $163,000 on          Jean Williams       Convicted 1/22/03
government credit cards                                          Stancell
                                                                 Silvador Denise     Convicted: 2/21/03
                                                                 Estep
Department employees and others involved in over $1 million      David “Dinky”       Sentenced: 10/10/02
electronic equipment and overtime fraud case                     Gray
                                                                 Elizabeth           Sentenced: 10/10/02
                                                                 Burroughs Gray
                                                                 Luther Mellen III   Convicted: 11/8/02
                                                                 Philip Burroughs    Convicted: 11/8/02
                                                                 Jeffrey Morgan      Convicted: 11/8/02
                                                                 Joanne Burch        Sentenced: 11/23/02
                                                                 Tina Burroughs      Sentenced: 11/15/02
                                                                 Lewis Morgan        Sentenced: 3/14/03
                                                                 Joanne Murphy       Sentenced: 11/15/02
                                                                 Susan Morgan        Sentenced: 1/23/03
                                                                 Marianne Buckler    Sentenced: 1/23/03          $2,928
                                                                 Robert Sweeney      Sentenced: 1/23/03
  * Arrest refers to filing of criminal complaint, indictments include informations, and convictions include pretrial diversions and nolo
  pleas.
  ** This Semiannual Report to Congress No. 46, October 1, 2002 - March 31, 2003, has incorrect information on the action
  involving the Florida Institute for Workforce Innovation (FIWI). The OIG investigation of FIWI resulted in an agreement whereby
  FIWI agreed to repay $285,568 in federal vocational rehabilitation funds. Also, page 25, Table 7 incorrectly stated that Dr. Bruce
  Waite was sentenced on October 21, 2002 for embezzling vocational rehabilitation funds in the amount $285,568. No legal action
  of any type was brought against Dr. Waite.




 26
                                                                                Semiannual Report To Congress: #46

Table 8: Statistical Profile: October 1, 2002 to March 31, 2003
                                                                                                         Six-month Period
                                                                                                          Ending 3/31/03
OIG AUDIT REPORTS ISSUED                                                                                               27
Questioned Costs                                                                                              $136,191,976
Unsupported Costs                                                                                               $3,450,956
Recommendations for Better Use of Funds                                                                                $0
OTHER OIG PRODUCTS                                                                                                     28
(Inspections, Action Memoranda, Alert Memoranda, Closeout Letters, Management Information Reports, and
Special Projects)
OIG AUDIT REPORTS RESOLVED BY PROGRAM MANAGERS                                                                         26
Questioned Costs Sustained                                                                                     $46,435,865
Unsupported Costs Sustained                                                                                     $3,402,591
Additional Disallowances Identified by Program Managers                                                         $8,532,659
Management Commitment to the Better Use of Funds                                                                       $0
INVESTIGATIVE CASE ACTIVITY
Cases Opened                                                                                                           82
Cases Closed                                                                                                          120
Cases Active at End of Period                                                                                         354
Prosecutorial Decisions                                                                                                79
 -Accepted                                                                                                             51
 -Declined                                                                                                             28
INVESTIGATION RESULTS
Indictments/Informations                                                                                               481
Convictions/Pleas                                                                                                      432
Fines Ordered                                                                                                      $22,002
Restitution Payments Ordered                                                                                   $11,704,360
Civil Settlements/Judgments (#)                                                                                        62
Civil Settlements/Judgments ($)                                                                                 $3,153,917
Recoveries                                                                                                        $408,243
  1Includes four actions not previously reported.
  2
   Includes two actions not previously reported.




                                                                                                                       27
Office of Inspector General




 28
U.S. Department of Education
Washington, D.C. 20202-1510

     Official Business
Penalty for Private Use, $300




                                 U.S. DEPARTMENT OF EDUCATION
                                 OFFICE OF INSPECTOR GENERAL
                                SEMIANNUAL REPORT TO CONGRESS
